Report No. DODIG-2012-059                 February 29, 2012





    Inadequate Controls Over the DoD Service-Disabled 

     Veteran-Owned Small Business Set-Aside Program 

      Allow Ineligible Contractors to Receive Contracts 

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
CCR                           Central Contractor Registration
CFR                           Code of Federal Regulations
CVE                           Center for Veterans Enterprise
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System–Next Generation
ORCA                          Online Representations and Certifications Application
OSBP                          Office of Small Business Programs
SBA                           Small Business Administration
SDVOSB                        Service-Disabled Veteran-Owned Small Business
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                 and Logistics
VA                            Department of Veterans Affairs
VIP                           Vendor Information Pages
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VA 22350-1500

                                                                                 February 29, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               NAVAL INSPECTOR GENERAL
               DIRECTOR, DOD OFFICE OF SMALL BUSINESS PROGRAMS

SUBJECT: Inadequate Controls Over the DoD Service-Disabled Veteran-Owned Small Business
         Set-Aside Program Allow Ineligible Contractors to Receive Contracts (Report No.
         DODIG-2012-059)

We are providing this report for review and comment. DoD awarded approximately
$342.2 million in funds set aside for the Service-Disabled Veteran-Owned Small Business
program to potentially ineligible contractors. In addition, DoD contracting activities inaccurately
coded contracts, valued at approximately $1.3 billion, as Service-Disabled Veteran-Owned Small
Business set-aside or sole-source awards in the Federal Procurement Data System–Next
Generation. We considered comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments from
the Under Secretary of Defense for Acquisition, Technology, and Logistics, were partially
responsive. The Executive Director, Deputy Assistant Secretary of the Navy (Acquisition and
Procurement) comments were responsive. The comments from the Deputy Director, Air Force
Small Business Programs Office, were not responsive. The U.S. Army Corps of Engineers did not
provide comments on a draft of this report. In addition, we redirected Recommendations A.2 and
A.3 to the Commander, Mission and Installation Contracting Command. Therefore, we request
additional comments on Recommendations A.1.b, A.2.a.(1), A.2.a.(2), A.2.a.(3), A.2.b, and B.3
by March 30, 2012.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible,
send a portable document format (.pdf) file containing your comments to aud-colu@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual signature. If you
arrange to send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604­
8905 (DSN 664-8905).




                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                               for Auditing
Report No. DODIG-2012-059 (Project No. D2010-D000FJ-0189.000)                       February 29, 2012

               Results in Brief: Inadequate Controls Over
               the DoD Service-Disabled Veteran-Owned
               Small Business Set-Aside Program Allow
               Ineligible Contractors to Receive Contracts

What We Did                                              By entering incorrect information into
We analyzed whether the controls over the DoD            FPDS-NG, the contracting activities
Service-Disabled Veteran-Owned Small                     compromise the integrity of the data.
Business (SDVOSB) set-aside program affected
the integrity of the program.                            What We Recommend
                                                         Among other things, DoD management should
What We Found                                            establish a contractor verification process to
Controls over the DoD SDVOSB set-aside                   evaluate contractors’ SDVOSB status. In
program were not adequate to ensure that only            addition, the commanding officers of the
eligible SDVOSBs obtained set-aside and sole-            facilities we audited should determine whether
source contracts. Specifically, DoD contracting          contractors misstated their SDVOSB status and
activities awarded:                                      pursue necessary contractual remedies. Doing
                                                         this could put $254.7million to better use by
•	 6 contracts, valued at approximately
                                                         ensuring eligible SDVOSBs receive the
    $1.9 million, to ineligible contractors, and
                                                         intended benefits.
•	 27 contracts, valued at approximately
    $340.3 million, to contractors that
                                                         In addition, DoD should address the accuracy of
    potentially misstated their SDVOSB status.
                                                         FPDS-NG data and reevaluate the process for
                                                         validating the contract action report data.
This occurred because the DoD Office of Small
Business Programs (OSBP) policy did not
require adequate verification of contractor status       Management Comments and
before awarding SDVOSB set-aside and sole-               Our Response
source contracts. As a result, nonqualified firms        The Director, DoD OSBP, comments were
received awards, reducing the opportunities for          partially responsive to the recommendations.
veterans disabled defending their country to             The Navy comments were responsive, but the
receive DoD contracts.                                   Deputy Director, Air Force Small Business
                                                         Programs Office, comments were not. He also
In addition, the Federal Procurement Data System–        provided unsolicited comments on two
Next Generation (FPDS-NG) contained coding               recommendations. The U.S. Army Corps of
errors related to SDVOSB set-aside and sole-             Engineers did not comment on a draft of this
source contracts. DoD contracting personnel:             report.
•	 incorrectly coded 137 contracts, valued at
    approximately $1.3 billion, as SDVOSB                We request management comments on the final
    awards; and                                          report by March 30, 2012. Please see the
•	 did not always ensure that contract action            recommendations table on the back of this page.
    reports were coded to reflect the correct set-
    aside used.

                                                     i
Report No. DODIG-2012-059 (Project No. D2010-D000FJ-0189.000)          February 29, 2012

Recommendations Table

               Management                      Recommendations          No Additional
                                              Requiring Comment       Comments Required
Under Secretary of Defense for Acquisition,   B.3                     B.1, B.2
  Technology, and Logistics
Commander, Mission and Installation           A.2.a.(1), A.2.a.(2),
  Contracting Command                         A.2.a.(3), A.2.b, A.3
Commander, Naval Facilities Engineering                               A.2.a.(1), A.2.a.(2),
  Command Mid-Atlantic                                                A.2.a.(3), A.2.b
Commander, Naval Facilities Engineering                               A.2.a.(1), A.2.a.(2),
  Command Northwest                                                   A.2.a.(3), A.2.b
Commander, Offutt Air Force Base              A.2.a.(1), A.2.a.(2),
                                              A.2.a.(3), A.2.b
Commander, U.S. Army Corps of Engineers       A.2.a.(1), A.2.a.(2),
  Fort Worth District                         A.2.a.(3), A.2.b
Commander U.S. Army Corps of Engineers        A.2.a.(1), A.2.a.(2),
  Mobile District                             A.2.a.(3), A.2.b
Commander, Norfolk Ship Support Activity                              A.3
Commander, Naval Air Warfare Center,                                  A.3
  Aircraft Division
Commander, U.S. Army Corps of Engineers       A.3
  New England District
Commander, Wright-Patterson Air Force         A.3
  Base
Commander, U.S. Army Corps of Engineers       A.3
  New Orleans District
Director, DoD Office of Small Business        A.1.b                   A.1.a
  Programs

Please provide comments by March 30, 2012.




                                              ii
Table of Contents

Introduction	                                                                   1


      Audit Objective                                                           1

      Background on the DoD Service-Disabled Veteran-Owned Small 

        Business Program                                                        1

      Controls Over the Service-Disabled Veteran-Owned Small Business

        Program Need Strengthening                                              4


Finding A. Contractors Improperly Received Contract Awards Intended for 

Service-Disabled Veteran-Owned Small Businesses                                 5


      Contracting Activities Need to Verify SDVOSB Status Before

         Contract Award                                                         5

      Contract Awards to Ineligible Contractors Will Continue Without

         Proper Verification                                                    7

      DoD OSBP Should Require Contractors to Demonstrate Their

         SDVOSB Status                                                          8

      Lack of Adequate Procedures for Evaluating SDVOSB Status                 14 

      Financial Benefit to SDVOSBs                                             15 

      Conclusion                                                               15 

      Management Comments on the Finding and Our Response                      16 

      Recommendations, Management Comments, and Our Response                   17 


Finding B. Action Needed to Prevent Coding Errors in the Federal Procurement

Data System–Next Generation                                                 22 


      Federal Procurement Data System–Next Generation                          22 

      Contracting Officers Ultimately Responsible for Accuracy

        of FPDS-NG Data                                                        22 

      DoD Contracting Personnel Need to Ensure That Contracts Are Correctly

        Coded in FPDS-NG                                                       23 

      DoD Annual Certification of FPDS-NG Data                                 24 

      No System Controls in FPDS-NG to Detect Errors in the Type 

        of Set-Aside Data Element                                              24 

      Conclusion                                                               25 

      Recommendations, Management Comments, and Our Response                   25 


Appendices

      A. 	Scope and Methodology                                                27 

             Use of Computer-Processed Data                                    28 

             Use of Technical Assistance                                       28 

             Prior Coverage of the SDVOSB Program                              29 

Table of Contents (cont’d)
Appendices (cont’d)

      B. CVE Process for Verifying Veteran-Owned Small Businesses           30 

      C. 	Memorandum to Acting Director, DoD Office of Small Business

            Programs                                                        32 


Management Comments
     Under Secretary of Defense for Acquisition, Technology, and
       Logistics                                                            35 

     Deputy Assistant Secretary of the Navy (Acquisition and Procurement)   40 

     Air Force Small Business Programs Office                               43 

Introduction
Audit Objective
Our objective was to evaluate the controls over the DoD Service-Disabled Veteran-Owned Small
Business (SDVOSB) set-aside program. Specifically, we analyzed whether the controls in place
affected the integrity of the program. See Appendix A for a discussion of the audit scope and
methodology and prior audit coverage.

Background on the DoD Service-Disabled Veteran-Owned
Small Business Program
Executive Order 13360, “Providing Opportunities for Service-Disabled Veteran Businesses to
Increase Their Federal Contracting and Subcontracting,” October 26, 2004, was established to
honor the extraordinary service given to the United States by veterans with disabilities incurred
or aggravated during active service with the Armed Forces. The Order requires heads of
agencies to provide the opportunity for service-disabled veteran businesses to significantly
increase their participation in Federal contracting. Further, agencies must establish a goal of not-
less-than 3-percent participation by service-disabled veteran businesses in Federal contracting,
giving agency contracting officers the authority to reserve certain procurements for such
businesses.

Federal Acquisition Regulation (FAR) 6.206, “Set-Asides for Service-Disabled Veteran-Owned
Small Business Concerns,” states that contracting officers may set aside solicitations to allow
only SDVOSBs to compete. It requires no separate justification or determination and findings to
set aside a contract action for SDVOSB concerns.

Public Law No. 85-536, “Small Business Act,” as amended, June 18, 2008, requires the
Government to provide maximum practicable opportunities in its acquisitions to small
businesses, including SDVOSBs. The Small Business Act further requires Federal agencies to
establish an Office of Small Business Programs (OSBP). The primary responsibility of the
DoD OSBP is to advise the Secretary of Defense on all matters related to small business. The
DoD OSBP develops small business policy and provides oversight to ensure compliance by all
Military Departments and Defense agencies. The SDVOSB program is one of the DoD OSBP
areas of responsibility.

Requirements for SDVOSB Concerns
In accordance with Part 125, Title 13, Code of Federal Regulations (13 CFR § 125.9 [2009]), an
SDVOSB concern must be at least 51-percent unconditionally and directly owned by one or
more service-disabled veterans. In addition, 13 CFR § 125.10 (2009) states that management
and daily business operations of the concern must be controlled by one or more service-disabled
veterans. This means that both the long-term decisionmaking and the day-to-day management
and administration of the business operations must be conducted by one or more service-disabled
veterans. A service-disabled veteran must hold the highest officer position in the concern



                                                 1

(usually president or chief executive officer) and must have managerial experience to the extent
and complexity needed to run the concern. In the case of a partnership, one or more service-
disabled veterans must serve as general partners, with control over all partnership decisions.
Limited liability companies must include one or more service-disabled veterans as managing
members, with control over all decisions of the limited liability company.

Requirements for SDVOSB Joint Ventures
According to 13 CFR § 125.15 (2009), an SDVOSB may enter into a joint venture agreement
with one or more other small businesses for the purpose of performing an SDVOSB contract.
The joint venture must consist of at least one SDVOSB and one or more other small businesses.
To qualify as an eligible SDVOSB joint venture, an SDVOSB must serve as the managing
venture, and an employee of the managing venture must serve as the project manager. In
addition, at least 51 percent of the net profits earned by the joint venture must be distributed to
the SDVOSB concern. The managing venture must also retain the final records upon completion
of the contract.

Contractors Self-Represent SDVOSB Status to DoD
In accordance with FAR 19.1403, “Status as a Service-Disabled Veteran-Owned Small Business
Concern,” at the time an SDVOSB submits its offer, it must represent to the contracting officer
that it is an SDVOSB. FAR 13.102, “Source List,” states that contracting officers should use the
Central Contractor Registration (CCR) database as their primary source of vendor information to
identify the status of an SDVOSB. The status information may also be used as the basis for
ensuring that small businesses receive the maximum practicable opportunities to respond to
solicitations.

Contractors must also complete annual electronic representations and certifications in the Online
Representations and Certifications Application (ORCA) in conjunction with required registration
in the CCR database. Contractors are required to update the representations and certifications
submitted to ORCA as necessary, but at least annually, to ensure that they are kept current,
accurate, and complete. The representations and certifications are effective for 1 year from the
date of submission or update to ORCA. In provision 52.212-3, “Offeror Representations and
Certifications–Commercial Items,” contractors represent whether they meet the status
requirements for various small business categories, including SDVOSBs. Figure 1 shows the
process DoD activities take before awarding SDVOSB set-aside and sole-source contracts.




                                                2

Figure 1. DoD Process for Awarding SDVOSB Set-Aside and Sole-Source Contracts




Department of Veterans Affairs Verification Program
The Secretary of the Department of Veterans Affairs (VA), in accordance with Public Law
No. 109-461, “Veterans Benefits, Health Care, and Information Technology Act of 2006,”
December 22, 2006, is required to maintain a database of small businesses owned and controlled
by veterans and the veteran owners of such businesses. To be eligible for inclusion in the
database, veteran owners voluntarily submit the required information related to their small
business. In maintaining the database, the Secretary must verify that each small business listed
in the database is owned and controlled by veterans and, in the case of a veteran who indicates a
service-connected disability, verify the service-disabled status of the veteran. The database is to
be available to all Federal departments and agencies. To meet the requirements of Public Law
No. 109-461, the VA established the Vendor Information Pages (VIP) database, which is
managed by the VA Center for Veterans Enterprise (CVE).




                                                 3

To protect veterans who have veteran-owned small businesses, the Veterans Small Business
Verification Act was enacted in Section 104 of Public Law No. 111-275, “Veterans Benefits Act
of 2010,” October 13, 2010. This law expanded the VA’s requirement to verify business status
as owned and operated by veterans, service-disabled veterans, or eligible surviving spouses.
According to the law, no small business may be included in the database until the Secretary has
verified that the business is owned and controlled by veterans or surviving spouses and, where
applicable, that the veteran incurred a service-connected disability. The law also required the
Secretary to remove from the database any businesses that do not provide the documentation
required to verify their eligibility.

In accordance with 38 CFR part 74 (2010), the VA is required to verify ownership and control of
veteran-owned small businesses, including SDVOSBs. The Director, CVE, is authorized to
approve or deny applications for VIP verification. CVE personnel confirm the accuracy of any
statement or information provided as part of the verification application process, verifying
whether the applicant meets the eligibility requirements.

Before our audit, we coordinated with CVE personnel to gain an understanding of their process
for verifying SDVOSBs. They provided us with a step-by-step analysis of their verification
program and decisionmaking process. (The CVE verification process is described in
Appendix B.) CVE personnel also provided copies of their Denied, Approved, and Unverified
lists as our audit progressed, as well as contractor files upon request. We applied the process
they used to perform contractor SDVOSB status verifications throughout our review of the DoD
SDVOSB program.

Controls Over the Service-Disabled Veteran-Owned Small
Business Program Need Strengthening
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls that
provides reasonable assurance that programs are operating as intended and to evaluate the
effectiveness of the controls. We determined that internal control weaknesses in the DoD
SDVOSB program existed as defined by DoD Instruction 5010.40. For the purpose of awarding
set-aside and sole-source contracts, DoD relied on contractors to self-represent their SDVOSB
status, without confirming the accuracy of the representations. Therefore, there was no
mechanism in place to ensure that contractors receiving set-aside and sole-source contract
awards met the applicable requirements for SDVOSBs. In addition, the only control in place to
verify contractors’ SDVOSB status was to check CCR for their self-representation, and this
control was not always followed. We will provide a copy of the report to the senior official
responsible for internal controls in the DoD Office of Small Business Programs.




                                               4

Finding A. Contractors Improperly Received
Contract Awards Intended for Service-Disabled
Veteran-Owned Small Businesses
Controls over the DoD SDVOSB set-aside program were not adequate to ensure that only
eligible SDVOSBs obtained set-aside and sole-source contracts. Specifically:

   •	 DoD contracting activities inappropriately awarded six contracts, valued at approximately
      $1.9 million, to ineligible contractors. This occurred because contracting personnel did
      not consult the Central Contractor Registration (CCR) to confirm SDVOSB status.

   •	 In addition, DoD contracting activities awarded 27 contracts, valued at approximately
      $340.3 million, to contractors that potentially misstated their SDVOSB status. This
      occurred because the Director, DoD Office of Small Business Programs (OSBP), did not
      establish a process to ensure that SDVOSBs met the applicable eligibility requirements
      before awarding set-aside and sole-source contracts.

As a result, DoD contracting activities were not meeting the statutory intent of the program to
honor extraordinary service given to the United States by veterans with disabilities incurred or
aggravated during active service with the Armed Forces. Further, without an adequate
verification program in place, DoD increases the potential for future awards to contractors that
misstate their SDVOSB status.

Contracting Activities Need to Verify SDVOSB Status Before
Contract Award
DoD contracting activities awarded six contracts,                 DoD contracting activities
valued at approximately $1.9 million, to five ineligible       awarded six contracts, valued at
contractors. FAR 19.1403 requires contractors to self-          approximately $1.9 million, to
represent SDVOSB status in CCR at the time they                   five ineligible contractors.
submit their offer to obtain a contract award. In
accordance with FAR 13.102, contracting officers should use CCR to confirm vendor status.
However, the CCR profiles for all five ineligible contractors confirmed that the contractors did
not represent their SDVOSB status in CCR. Because DoD contracting activities did not confirm
the vendors’ status, they awarded contracts to nonqualified firms and subverted the statutory
intent of the program to assist veterans disabled while defending their country. Table 1 shows
the contracting activities that awarded contracts to ineligible contractors.




                                                5

      Table 1. DoD Contracting Activities Awarded Contracts to Ineligible Contractors
          DoD Contracting                   Number of               Contract                      Dollar
               Activity                     Contracts               Number                        Value
      Army Communications                      1                 W909MY08C0034                 $1,755,132
      Electronics Command
      Defense Commissary                           1             HDEC0510P0076                      39,490
      Agency
      Kentucky Army National                       1             W912KZ10P0067                      63,915
      Guard
      National Capital Region                      2             W9124A10P0096                      33,183
      Contracting Center                                         W9124A10P0097                       8,848
      Naval Surface Warfare                        1              N6339410P5028                     33,418
      Center
        Total                                      6                                           $1,933,986

Army Communications Electronics Command
Army Communications Electronics Command contracting personnel awarded Contract
No. W909MY08C0034, valued at $1.8 million, as an SDVOSB sole-source contract to an
ineligible contractor, Systems Solutions Group Inc. The Command personnel confirmed through
our data request that they awarded the sole-source contract to a contractor that did not represent
SDVOSB status in CCR and classified the contract as SDVOSB sole-source on the contract
action report. 1 Therefore, the Command inappropriately awarded an SDVOSB sole-source
contract to a contractor that was not eligible to receive it.

Defense Commissary Agency
Defense Commissary Agency contracting personnel awarded Contract No. HDEC0510P0076,
valued at $39,490, as an SDVOSB set-aside contract to an ineligible contractor, Pride Lawn
Tree & Landscaping. The contractor did not represent SDVOSB status in CCR; however, an
amendment to the solicitation was signed by the contractor and included clauses that indicated
the contractor was an SDVOSB. Following our initial audit inquiry regarding the contractor’s
status, the contracting officer submitted a protest to the Small Business Administration (SBA).
In September 2010, SBA officials dismissed the protest as lacking specificity.

In November 2010, however, SBA officials formally determined that the contractor was “other­
than-small” for the subject procurement and size standard, which automatically prevents the
contractor from qualifying as an eligible SDVOSB. Seven contractors submitted offers for this
contract. On the basis of the SBA determination, the Defense Commissary Agency suspended

1
 A contract action is any oral or written action that results in the purchase, rent, or lease of supplies or equipment,
services, or construction using appropriated dollars over the micro-purchase threshold, or modifications to these
actions regardless of dollar value. The report contains contract action data required to be entered into the Federal
Procurement Data System–Next Generation.


                                                            6

further work on the contract until the senior contracting officer and general counsel had a chance
to review all the documentation.

Kentucky Army National Guard
Kentucky Army National Guard contracting personnel awarded Contract No. W912KZ10P0067,
valued at $63,915, as an SDVOSB set-aside contract to an ineligible contractor, Most Health
Care Systems Inc. The Guard advertised the procurement in the Federal Business Opportunities
database as an SDVOSB set-aside. Contracting personnel awarded the contract to the lowest
offeror, without confirming in CCR that the contractor represented SDVOSB status. Two other
contractors submitted offers on the contract, and both represented SDVOSB status. Therefore,
contracting personnel should have ensured that the SDVOSB set-aside contract was awarded to
one of the contractors that represented SDVOSB status.

National Capital Region Contracting Center
National Capital Region Contracting Center personnel at Fort Huachuca awarded Contract Nos.
W9124A10P0096 and W9124A10P0097, valued at $33,183 and $8,848 respectively, as
SDVOSB set-aside contracts to an ineligible contractor, Impact Partners, L.P. They originally
intended to award the contracts to small businesses or small disadvantaged businesses.
However, the solicitations for both contracts were issued as SDVOSB set-asides. Contracting
personnel did not catch the error before awarding both contracts to the contractor that submitted
the lowest quote, which was not an SDVOSB. At least one contractor that represented SDVOSB
status in CCR submitted an offer on both contracts, and therefore, contracting personnel should
have ensured that the contracts were awarded to a contractor that represented SDVOSB status,
rather than only considering the lowest offer.

After we informed Fort Huachuca contracting personnel about this issue, they conducted a
learning forum to stress the importance of ensuring consistency throughout the contract award
process. Additionally, the learning forum addressed the need to specifically confirm contractor
status before awarding set-aside and sole-source contracts.

Naval Surface Warfare Center
Naval Surface Warfare Center, Port Hueneme Division, contracting personnel awarded Contract
No. N6339410P5028, valued at $33,418, as an SDVOSB set-aside contract to an ineligible
contractor, Protelecom, LLC. The contractor did not represent SDVOSB status in CCR. The
contract was awarded as a 100-percent set-aside for SDVOSB. Following our initial audit
inquiry about the contractor’s status, the contracting officer confirmed that the contractor was not
an SDVOSB, but a veteran-owned, small disadvantaged business. By the time the contracting
officer became aware that the contractor did not represent SDVOSB status, the contract terms
had been fulfilled.

Contract Awards to Ineligible Contractors Will Continue
Without Proper Verification
SDVOSB set-aside and sole-source contract awards to ineligible contractors will continue to
exist if DoD contracting activities do not exercise due diligence by confirming a contractor’s
SDVOSB status in CCR. The Director, DoD OSBP, should emphasize the requirement of


                                                 7

confirming SDVOSB status before contract award. If contracting activities continue to award
SDVOSB contracts to ineligible contractors, DoD may be subject to future litigation from
eligible SDVOSB contractors that did not receive the set-aside or sole-source contract awards.

DoD OSBP Should Require Contractors to Demonstrate Their
SDVOSB Status
     DoD contracting activities        DoD contracting activities awarded 27 contracts, valued
   awarded 27 contracts, valued at     at approximately $340.3 million, to DoD contractors
   approximately $340.3 million, to    that potentially misstated their SDVOSB status.
   DoD contractors that potentially    According to 13 CFR §§ 125.9 and 125.10 (2009), an
   misstated their SDVOSB status.      eligible SDVOSB concern must be at least 51-percent
                                       owned by one or more service-disabled veterans. In
addition, management and daily business operations of the concern must be controlled by one or
more service-disabled veterans. DoD contracting activities awarded:

    •	 12 contracts, valued at approximately $11.5 million, to 6 contractors that were denied
       SDVOSB status by CVE;

    •	 7 contracts, valued at approximately $9.8 million, to 5 contractors who were on the CVE
       unverified list because their SDVOSB status could not be verified; and

    •	 8 contracts, valued at approximately $319 million, to 7 contractors who potentially
       misstated their SDVOSB status. These contractors were not previously reviewed
       by CVE.

DoD Contractors Denied by CVE
DoD awarded 12 SDVOSB set-aside contracts, valued at approximately $11.5 million, to
6 contractors who were denied eligibility by CVE. The six contractors were denied eligibility
because they did not meet the SDVOSB requirements outlined in 13 CFR part 125 (2009). We
issued three potential fraud referrals to the Defense Criminal Investigative Service as a result of
our review. The Defense Criminal Investigative Service did not accept the remaining three
contractors, citing that the contractors had no present contracts with DoD and there was no
apparent loss based on prior performance.

Unverified Contractors
DoD awarded seven SDVOSB contracts, valued at approximately $9.8 million, to five
contractors that CVE personnel had placed in unverified status because they were unable to
confirm whether the majority owner was a service-disabled veteran. We issued a memorandum
on September 13, 2010, to notify the Acting Director, DoD OSBP, that the five contractors might
not qualify to receive DoD SDVOSB set-aside or sole-source awards. (The memorandum is
reprinted in Appendix C.)

We asked the Acting Director, DoD OSBP, to follow up and verify whether the contractors we
identified met the requirements of SDVOSB status and also to establish procedures for
contracting activities to obtain official evidence of service-disabled veteran status. The Acting


                                                 8

Director did not provide a formal response to our memorandum. However, DoD OSBP
personnel stated that each contractor had certified its status as an SDVOSB in compliance with
the FAR and that they would take no further action. The response suggests that DoD OSBP
would prefer to rely on the self-representation process, which contains several control
deficiencies, rather than address the issues we identified.

CVE personnel confirmed that four of the five contractors remained in unverified status as of
August 11, 2011. Since the Acting Director, DoD OSBP, did not take action in response to our
memorandum, the commanding officers of the activities that awarded the contracts should follow
up and verify whether the contractors met the requirements of SDVOSB status.

DoD Contractors Who Potentially Misstated SDVOSB Status
DoD contracting activities awarded eight SDVOSB set-aside contracts, valued at approximately
$319 million, even though sufficient evidence did not exist to support the contractors’ SDVOSB
status. Table 2 shows the contracting activities that awarded contracts to contractors that
potentially misstated their SDVOSB status, which we identified from the red flags generated
during our review.

    Table 2. Awards to Contractors That Potentially Misstated Their SDVOSB Status
          DoD Contracting Activity         Number of Contracts          Dollar Value
         McChord Air Force Base                    1                     $7,304,890
         Naval Facilities Engineering              1                      9,649,008
         Command Mid-Atlantic
         Naval Facilities Engineering                 1                 200,000,000
         Command Northwest
         Offutt Air Force Base                        2                    1,943,611
         U.S. Army Corps of                           2                   80,000,000
         Engineers Fort Worth
         U.S. Army Corps of                           1                   20,000,000
         Engineers Mobile
           Total                                      8                $318,897,509

To determine whether the contractor met the requirements of an SDVOSB, we performed a
detailed analysis of each contractor. From the documentation we obtained, we determined that
seven contractors received SDVOSB awards even though sufficient evidence did not exist to
support their eligibility.

DoD contracting activities relied on contractors’ self-representations in CCR and ORCA before
awarding SDVOSB set-aside and sole-source contracts. The CCR and ORCA do not include
enough information to effectively verify that a service-disabled veteran is the majority owner and
holds the highest position in the concern.

The following examples demonstrate that had DoD OSBP established a process to ensure that
SDVOSBs met the applicable eligibility requirements before awarding set-aside and sole-source


                                                9

contracts, contractors who misstated their status would not have received SDVOSB contracts.
DoD OSBP policy lacked the necessary controls to provide reasonable assurance that only
eligible contractors received SDVOSB awards.

McChord Air Force Base
The 62nd Contracting Squadron personnel at McChord Air Force Base awarded an SDVOSB set-
aside contract, valued at $7.3 million, to Contractor A even though evidence existed to indicate
that Contractor A misstated information, providing the appearance that it met the requirements
for SDVOSB joint ventures.

Contractor A was a joint venture between Company A-1, an SDVOSB firm, and Company A-2,
a veteran-owned firm. During the audit, we determined that Company A-1 appeared to be an
eligible SDVOSB concern. Therefore, in order for Contractor A to qualify as an eligible
SDVOSB joint venture, Company A-1 had to serve as the managing venture and one of its
employees had to serve as the project manager. In addition, Company A-1 had to receive at least
51 percent of the net profits earned by the joint venture and retain the final records upon
completion of the contract.

A letter that Contractor A submitted to McChord Air Force Base contracting personnel provided
information supporting that Contractor A misstated its status as an SDVOSB joint venture.
Specifically:

   •	 Company A-1 did not appear to be the managing venture;

   •	 An employee of Company A-1 did not appear to serve as the project manager;

   •	 The lack of evidence to support Company A-1’s involvement in Contractor A indicated
      that Company A-1 would not receive at least 51 percent of the net profits earned by the
      joint venture; and

   •	 Company A-1’s lack of involvement indicated that it would not retain the final records.

As Company A-1 was the only SDVOSB identified as part of Contractor A, these factors directly
violated the requirements for SDVOSB joint ventures. Therefore, Contractor A did not appear to
meet the requirements for SDVOSB joint ventures and, thus, would not be eligible to receive
SDVOSB set-aside or sole-source contracts.

Naval Facilities Engineering Command Mid-Atlantic
Naval Facilities Engineering Command Mid-Atlantic contracting personnel awarded an
SDVOSB set-aside contract in the amount of $9.65 million to Contractor B, even though
sufficient evidence did not exist to support its SDVOSB status.

Because we were unable to verify the majority owner and highest ranking officer of Contractor B
through information available to us, we based our determination of SDVOSB status on the
following. In coordination with the VA Office of Inspector General, we determined that of the
four individuals identified as executives of the company, two were service-disabled veterans.


                                               10

However, sufficient evidence did not exist to support that the service-disabled veteran
conducting both the long-term decisionmaking and the day-to-day management and
administration was the majority owner and highest ranking officer of Contractor B.

The two service-disabled veterans identified as executives for Contractor B were also listed as
executive vice president and vice president of Contractor B-1, as noted in documentation filed
with the State of North Carolina. Additionally, Contractor B and Contractor B-1 shared
two business locations, according to the documentation used to self-certify SDVOSB status. The
overlapping of company executives and business locations between Contractor B and
Contractor B-1 raised questions about which contractor was satisfying the terms of the contract.
Contractor B did not appear to be an SDVOSB and was not eligible to receive SDVOSB set-
aside or sole-source contracts. Because of that determination, the remaining undisbursed amount
of approximately $1.5 million should be put to better use to benefit eligible SDVOSBs.

Naval Facilities Engineering Command Northwest
Naval Facilities Engineering Command Northwest contracting personnel awarded an SDVOSB
set-aside contract, with a ceiling amount of $200 million, to Contractor C, even though evidence
was insufficient to support its SDVOSB status.

We were unable to clearly distinguish the majority owner and highest ranking officer of
Contractor C, and we based our determination of SDVOSB status on all six of the individuals
identified as members of the company. Only one of the six members was a service-disabled
veteran. However, evidence did not exist to support that this individual was the majority owner
and highest ranking officer of Contractor C.

The business license for Contractor C indicated that all six members of the company were equal
partners. In addition, the service-disabled veteran lived in Anchorage, Alaska, while the
contractor was in Seattle, Washington, approximately 2,266 miles away. The requirements for
SDVOSB status state that a service-disabled veteran must control the day-to-day management
and administration of the business operations. Considering the distance between the service-
disabled veteran’s residence and the contractor’s location, it is not reasonable to believe that the
contractor met this requirement. Therefore, Contractor C did not appear to be an SDVOSB and
was not eligible to receive SDVOSB set-aside or sole-source contracts. Because of that
determination, the remaining undisbursed amount of approximately $179.4 million should be put
to better use to benefit eligible SDVOSBs.

Offutt Air Force Base
The 55th Contracting Squadron personnel at Offutt Air Force Base awarded two SDVOSB set-
aside contracts through sealed bid to Contractor D: Contract No. 1 for $1.3 million and Contract
No. 2 for $619,134. However, evidence existed to question the validity of Contractor D and
whether it might be a potential passthrough to Contractor D-1.

Initial supporting documentation established Contractor D as an eligible SDVOSB; however,
evidence existed that questions Contractor D’s validity.




                                                11

   •	 Contractor D received the contracts; however, documentation in the contract files
      supported that a joint venture was established between Contractors D and D-1. No
      documentation was found to support that the contracting activity assessed the eligibility
      of the joint venture.

   •	 The CCR for Contractors D and D-1 contained the same points of contact for both 

      companies. 


   •	 The past performance summary submitted included only past performance for

      Contractor D-1. 


   •	 Contractor D was located in a single-family residence and did not have a company
      Web site.

   •	 The Contractor representative was identified as the vice president of Contractor D-1.
      Additionally, e-mail correspondence was sent from a Contractor D-1 e-mail account and
      included the address for Contractor D-1.

   •	 Contractor D articles of incorporation with the State of Missouri designated a three-
      member board of directors. The board had the power to make decisions by majority vote.
      Only one of the three shareholders was a service-disabled veteran, and the articles would
      preclude him from controlling the long-term decisionmaking and day-to-day management
      and administration of the business operations of Contractor D because he could be
      outvoted by the other members. This business license was terminated in 2009, and the
      later articles of incorporation could not be obtained, preventing further determination.

The inconsistencies with the documentation supported that Contractor D was a potential
passthrough company to Contractor D-1. Additionally, information reported by Contractor D on
the Recovery.gov Web site supported that Contractor D was not retaining the required 15 percent
of the contract cost. The possibility that Contractor D was a passthrough would indicate that the
percentage retained was going directly to Contractor D-1, which was not an SDVOSB.

U.S. Army Corps of Engineers Fort Worth District
U.S. Army Corps of Engineers Fort Worth District contracting personnel awarded two SDVOSB
set-aside contracts, as follows.

Contract No. 1. One SDVOSB set-aside contract, with a ceiling amount of $40 million, went to
Contractor E, even though evidence indicated that Contractor E misstated information, providing
the appearance that it met the requirements for SDVOSB joint ventures.

Contractor E was a joint venture between Company E-1, a Section 8(a) firm, and Company E-2,
an SDVOSB firm. During this audit, we determined that Company E-2 appeared to be an
eligible SDVOSB. Therefore, in order for Contractor E to qualify as an eligible SDVOSB joint
venture, Company E-2 had to serve as the managing venture, and one of its employees had to




                                               12

serve as the project manager. In addition, Company E-2 had to receive at least 51 percent of the
net profits earned by the joint venture and retain the final records upon completion of
the contract.

The joint venture agreement for Contractor E appropriately addressed the pertinent eligibility
requirements for SDVOSB joint ventures and provided the appearance that the contractor met
those requirements. However, information existed to indicate that Contractor E misstated its
eligibility. Specifically:

   •	 Company E-1 appeared to be the managing venture;

   •	 An employee of Company E-1 appeared to serve as the project manager;

   •	 Contractor E’s organization chart supported that Company E-1 played a much greater
      role in the joint venture than Company E-2 and that it might receive at least 51 percent of
      the net profits earned by the joint venture; and

   •	 The principal office and place of business of Contractor E was the office location of
      Company E-1, which indicated that Company E-1 might retain the final records.

Since Company E-1 was not an SDVOSB, these factors directly violated the requirements for
SDVOSB joint ventures. Therefore, Contractor E did not appear to meet the requirements for
SDVOSB joint ventures and the contractor was not eligible to receive SDVOSB set-aside or
sole-source contracts. Because of that determination, the remaining undisbursed amount of
approximately $28.6 million should be put to better use to benefit eligible SDVOSBs.

Contract No. 2. Another SDVOSB set-aside contract, with a ceiling amount of $40 million,
went to Contractor F, even though evidence was insufficient to support its SDVOSB status.
Although not evident from the original contract data, Contractor F, an SDVOSB firm, actually
participated in a joint venture with Company F-1 to complete the contract.

During this audit, we determined that Contractor F appeared to be an eligible SDVOSB.
Therefore, in order for the joint venture between Contractor F and Company F-1 to qualify as an
eligible SDVOSB joint venture, Contractor F had to serve as the managing venture and one of its
employees had to serve as the project manager. In addition, Contractor F had to receive at least
51 percent of the net profits earned by the joint venture and retain the final records upon
completion of the contract.

The joint venture agreement between Contractor F and Company F-1 appropriately addressed the
pertinent eligibility requirements for SDVOSB joint ventures and provided the appearance that
the contractor met those requirements. However, the information in the joint venture agreement
appeared to be misstated. Specifically:

    •	 Company F-1 appeared to be the managing venture, and

    •	 An employee of Company F-1 appeared to serve as the project manager.


                                               13

Company F-1 was not an SDVOSB; thus, these factors directly violated the requirements for
SDVOSB joint ventures. Therefore, the joint venture between Contractor F and Company F-1
did not appear to meet the requirements for SDVOSB joint ventures and the contractor was not
eligible to receive SDVOSB set-aside or sole-source contracts. Because of that determination,
the remaining undisbursed amount of approximately $30 million should be put to better use to
benefit eligible SDVOSBs.

U.S Army Corps of Engineers Mobile District
U.S. Army Corps of Engineers Mobile District contracting personnel awarded an SDVOSB set-
aside contract in the amount of $20 million, even though evidence existed to support that the
majority owner and highest ranking officer of Contractor G was not a service-disabled veteran.
In addition, the owner of Contractor G was identified as the incorporator of three additional
businesses in active status, one of which reported the same address as Contractor G.
Management and daily business operations of the concern had to be controlled by one or more
service-disabled veterans. In accordance with 13 CFR §§ 125.9 and 125.10 (2009), an SDVOSB
had to own at least 51 percent and manage the daily business operations. The supporting
documentation did not confirm that the owner met the qualifications of a service-disabled
veteran; therefore, Contractor G did not meet the qualifications of an SDVOSB. Furthermore,
the owner’s involvement in the three additional businesses could impair his ability to run the
daily operations of Contractor G. Because of that determination, the remaining undisbursed
amount of approximately $15.4 million should be put to better use to benefit eligible SDVOSBs.

Lack of Adequate Procedures for Evaluating SDVOSB Status
DoD did not have adequate procedures in place to properly evaluate SDVOSB status before
awarding an SDVOSB set-aside or sole-source contract. In accordance with FAR 6.206, “Set-
Asides for Service-Disabled Veteran-Owned Small Business Concerns,” contracting officers
may set aside solicitations for SDVOSB concerns with no requirement for justification or
determination. DoD contracting activities are limited to relying on contractors’ self-
representations in CCR and ORCA before the award of SDVOSB set-aside and sole-source
contracts. The CCR and ORCA do not include enough information to effectively verify that a
service-disabled veteran is the majority owner and holds the highest officer position in the
concern.

To ensure that contractors accurately represent SDVOSB status, the Director, DoD OSBP,
should establish procedures to properly evaluate SDVOSB status before contract award. These
procedures should require contractors to submit documentation to support their SDVOSB status.
At a minimum, contractors should establish that a service-disabled veteran is at least 51-percent
owner, holds the highest officer position, controls the long-term decisionmaking, and manages
the day-to-day operations of the business. Status as a service-disabled veteran should be
confirmed through either a disability rating letter issued by the VA or a disability determination
from DoD. 2

2
  The DD Form 214, “Certificate of Release or Discharge From Active Duty,” is a report of separation generally
issued when a Service member performs active duty or at least 90 consecutive days of active duty training. The
report contains information normally needed to verify military service for benefits, retirement, employment, and
membership in veterans’ organizations.


                                                        14

Although the existing DoD process for determining contractor
SDVOSB status is in compliance with the FAR, this process             Although the existing DoD
does not include adequate steps for confirming that contractors         process for determining
actually meet the applicable SDVOSB requirements. Without             contractor SDVOSB status
proper procedures in place to evaluate SDVOSB status, DoD              is in compliance with the
has no assurance that contractor self-representations are                 FAR, … DoD has no
accurate. The lack of adequate procedures compromises the             assurance that contractor
integrity and intention of the SDVOSB program. In addition,             self-representations are
greater risk exists that DoD will continue to award SDVOSB                      accurate.
contracts to contractors who misrepresent their status.

Financial Benefit to SDVOSBs
DoD awarded eight contracts, valued at approximately $319 million, to seven contractors who
potentially misstated their SDVOSB status. Five of these contracts remained open, with
approximately $254.7 million in funds that have not been disbursed.

The original intent of the contracts was to provide opportunities for service-disabled veterans to
participate in Federal contracting. However, evidence existed to indicate that the contractors
misstated their SDVOSB status to DoD and inappropriately obtained the contracts. The
contracting activities should verify the SDVOSB status of the contractors referenced in this
report. If a contracting activity identifies that a contractor misstated its status to DoD, the
activity should pursue contractual remedies and put any remaining undisbursed funds to better
use by ensuring those veterans disabled while defending the country receive the intended
benefits.

We arrived at the $254.7 million in funds put to better use by taking the total contract values less
disbursements. Any potential monetary benefit would be reduced by any offsetting direct and
indirect costs that would be incurred to implement the recommended action. The full extent of
the monetary benefits would be quantifiable once management takes action.

Conclusion
SDVOSB set-aside and sole-source contract awards to contractors who misstate their status will
continue until the Director, DoD OSBP, establishes adequate policies and procedures to properly
verify contractor status. If the DoD OSBP does not establish adequate procedures, it will
continue to convey the message that assisting service-disabled veterans is not a priority.
Furthermore, the lack of action compromises the integrity and intention of the SDVOSB
program, which is to serve veterans with disabilities incurred or aggravated in the line of duty.
Veterans remain at risk of losing the benefits the President intended for them. By not
implementing adequate verification procedures for SDVOSB contracts, the DoD OSBP places
service-disabled veterans in jeopardy of not receiving the intended contract awards.




                                                 15

Management Comments on the Finding and Our Response
Air Force Small Business Programs Office Comments
The Deputy Director, Air Force Small Business Programs Office, responded to our discussion
regarding Contractor D at Offutt Air Force Base. He evaluated the information provided in the
report with regard to Contractor D and noted specific areas of disagreement. He stated that CCR
documents showed no common points of contact between Contractor D and Contractor D-1. He
also stated that it was uncommon for a prime to engage a subcontractor who has relevant past
performance to provide the level of assurance that the prime can do the work, noting that in order
to be in compliance, the SDVOSB must perform 15 percent of the work.

Additionally, he considered immaterial the fact that Contractor D was located in a single-family
residence and did not have a company Web site. Many small business owners work out of their
residence and do not maintain Web sites in order to keep down costs. Further, he stated that we
presented no evidence that the Contractor representative was the vice president of Contractor
D-1. He stated that one would expect to have an employee of Contractor D-1 send
correspondence from the company e-mail account. He also stated that contracting officers were
to verify SDVOSB status in CCR and that the articles of incorporation were not required
documentation. Finally, he stated that the contracting officer would have no way of knowing at
the time of contract award, what percentage of the contract Contractor D would perform.

Our Response
We have addressed each of the issues as presented. The Government point of contact listed on
the CCR for both Contractor D and Contractor D-1 are the same person. Additionally, the other
points of contact included on the CCR for Contractor D list the address associated with
Contractor D-1. We agree that it seems uncommon for the prime to engage a subcontractor who
has relevant past performance to provide the level of assurance that the prime can do the work.
That information was included in the report to further question Contractor D’s validity.

Additionally, while it may seem immaterial for a small business to be located in a single-family
residence and not have a company Web site, this information supports that Contractor D was
potentially a passthrough company. Furthermore, we agree that maintaining a company Web site
is not a requirement; however, a majority of the DoD SDVOSBs included in our audit
maintained Web sites, causing us to again question whether Contractor D was potentially a
passthrough company.

Documentation obtained from the contract file supported that the vice president of
Contractor D−1 acted as a representative on the contract on more than one occasion. That
correspondence was done through an e-mail account established with Contractor D-1. We agree
that contracting officers were only required to confirm SDVOSB status in CCR and ORCA;
however, the entire premise of this audit was to establish that the requirements were not
sufficient to ensure that only eligible SDVOSBs were obtaining DoD contracts. Further,
although the contracting officer would have no way of knowing at contract award whether or not
the SDVOSB contractor would perform the required 15 percent of the work, the fact that
Contractor D did not perform the required percentage further supported the possibility that
Contractor D was potentially a passthrough.


                                               16

Recommendations, Management Comments, and
Our Response
Redirected Recommendations
As a result of the realignment of McChord Air Force Base, we redirected draft Recommendation
A.2 to the Commander, Mission and Installation Contracting Command. Because the
Commander, Fort Drum, did not comment on a draft of this report, we redirected draft
Recommendation A.3 to the Commander, Mission and Installation Contracting Command. We
request that the Commander, Mission and Installation Contracting Command, provide comments
on the final report by March 30, 2012.

Recommendations
A.1. We recommend that the Director, DoD Office of Small Business Programs:

       a. Issue guidance to all DoD contracting activities that award Service-Disabled
Veteran-Owned Small Business set-aside and sole-source contracts, reiterating the
requirement that DoD contracting personnel confirm via the Central Contractor
Registration that contractors represent Service-Disabled Veteran-Owned Small Business
status before award.

       b. Establish a contractor verification process similar to that outlined in Public Law
Nos. 109-461, “Veterans Benefits, Health Care, and Information Technology Act of 2006,”
December 22, 2006, and 111-275, “Veterans Benefits Act of 2010,” October 13, 2010, to
evaluate contractors’ Service-Disabled Veteran-Owned Small Business status before
awarding set-aside and sole-source contracts.

DoD Office of Small Business Programs Comments
The Director, DoD OSBP, agreed with Recommendation A.1.a, stating that the Department notes
that FAR 13 applies to the simplified acquisition threshold and that for acquisitions above that
threshold, FAR 4.12 directs contracting officers to review a vendor’s entry in the ORCA, as that
is where a vendor actually certifies. Further, the Director agreed to issue guidance reminding
contracting officers of the requirements under FAR 13.102 and highlighting the use of ORCA for
vender certification. He stated that guidance would be issued by the end of the 3rd quarter of
FY 2012.

The Director did not agree, however, with Recommendation A.1.b, stating that he was hesitant to
alter current veteran-focused activities in the absence of evidence indicating that such a change
would produce a net benefit to service-disabled veterans who own small businesses. He stated
that the VA’s verification process was slow and resource–intensive, causing many veterans to
miss opportunities. Further, he stated that the VA’s parameters regarding ownership and control
presented barriers that discourage veteran businesses from forming teams.

Additionally, he stated that CVE was established to meet the requirement of Public Law
No. 109-461, which Congress mandated specifically for the VA. In that regard, he stated that
Congress intended different treatment of the two Departments with different rules and that the


                                               17

law applied only to the VA. At the same time, he stated, many congressionally mandated rules
for DoD were very prescriptive and not applicable to VA. Further, he stated that Congress has
not provided DoD with either the resources or the authority to establish a system such as Public
Law No. 109-461 envisions. Finally, he stated that in the absence of evidence indicating that
such a change would produce a net benefit to SDVOSBs, his office would be hesitant to alter the
current veteran-focused activities.

Our Response
The comments from the Director, DoD OSBP, were responsive to Recommendation A.1.a, but
were not responsive to Recommendation A.1.b. Our audit analyzed whether the controls in place
affected the integrity of the SDVOSB program, specific to vendor self-certification of service-
disabled veteran status. The results demonstrate that there is enough evidence to support the
need for a contractor verification process. Without a verification process, the SDVOSB program
remains susceptible to fraud, waste, and abuse, and deserving SDVOSBs could miss
opportunities that would have otherwise been afforded to them.

Concerning the barriers to forming teams, SDVOSBs may enter into a joint venture agreement
with one or more small business concerns for the purpose of performing an SDVOSB contract as
long as the joint venture meets the requirements outlined in 13 CFR § 125.15. A verification
process would not hinder eligible SDVOSBs from growing and expanding to better compete for
subsequent acquisitions. We request that the Director, DoD OSBP, reconsider his position on
Recommendation A.1.b or establish a cost effective compensating solution to evaluate
contractors’ service-disabled status prior to award, and provide comments on the final report by
March 30, 2012.

Air Force Office of Small Business Programs Comments
Although not required to comment, the Deputy Director, Air Force Small Business Programs
Office provided the following comments on Recommendation A.1. He stated that once his office
receives guidance from the Director, DoD OSBP, he intends to coordinate with the Secretary of
the Air Force, Mission Support Division, in issuing the suggested guidance concerning CCR.
Additionally, he stated that adopting the verification practices of the CVE would be
inappropriate for the mission of the Air Force Office of Small Business Programs.

Our Response
Although the Deputy Director, Air Force Small Business Programs Office, stated that adopting
the verification practices of the CVE would be inappropriate for the mission, the report
highlights several deficiencies with the current self-certification process in support of the
recommendation. Additionally, the recommendation states that a contractor verification process
similar to that outlined in Public Law Nos. 109-461 and 111-275 should be established, not that
DoD should adopt the CVE verification program.

A.2. We recommend that the Commanders, Mission and Installation Contracting
Command; Naval Facilities Engineering Command Mid-Atlantic; Naval Facilities
Engineering Command Northwest; Offutt Air Force Base; and U.S. Army Corps of
Engineers Fort Worth and Mobile Districts, task the contracting officers to:



                                               18

       a. Follow up on the contractors referenced in this report to determine whether they
misstated their Service-Disabled Veteran-Owned Small Business status by obtaining:

               (1) A list of each business owner/stockholder, including position held and
the respective ownership percentages totaling 100 percent;

              (2) A copy of the either a disability rating letter issued by the Department
of Veterans Affairs or a disability determination from DoD confirming the majority
owner(s)’ service-disabled veteran status; and

               (3) Evidence to support that a service-disabled veteran controls the long-
term decisionmaking and manages the day-to-day operations of the company; for example,
a copy of the articles of incorporation/organization or an equivalent document establishing
voting rights.

      b. Pursue contractual remedies and/or referral for consideration of possible
suspension or debarment action, if necessary.

Deputy Assistant Secretary of the Navy (Acquisition and
Procurement) Comments
The Executive Director, Deputy Assistant Secretary of the Navy (Acquisition and Procurement),
responded on behalf of the Commanders, NAVFAC Mid-Atlantic and NAVFAC Northwest and
partially agreed with the recommendation. She stated that SBA, not the contracting officer, had
the authority and responsibility to determine whether the contractors “misstated” their small
business status. However, she stated that on the basis of the information provided in the report,
the NAVFAC contracting officers would challenge the SDVOSB status of Contractor B and
Contractor C by referring the matter to SBA, in accordance with FAR 19.307 and
13 CFR § 125.25. Upon receipt of the SBA’s determination, the authorizing agency would take
the appropriate action.

Our Response
The comments from the Executive Director, Deputy Assistant Secretary of the Navy
(Acquisition and Procurement), were responsive, and no additional comments were required.

Management Comments Required
The Deputy Director, Air Force Small Business Programs Office, responded on behalf of the
Commander, Offutt Air Force Base (see page 16). The comments were not responsive to
Recommendations A.2.a.(1), A.2.a.(2), A.2.a.(3) and A.2.b. We request that the Commander,
Offutt Air Force Base provide comments on the final report by March 30, 2012.

The U.S. Army Corps of Engineers did not comment on a draft of this report. We request that
the Commanders, U.S. Army Corps of Engineers Fort Worth and Mobile Districts, provide
comments on the final report by March 30, 2012.




                                               19

A.3. We recommend that the Commanders, Norfolk Ship Support Activity; Naval Air
Warfare Center, Aircraft Division; U.S. Army Corps of Engineers New England and New
Orleans Districts; Wright-Patterson Air Force Base; and Mission and Installation
Contracting Command, task the contracting officers to follow up on the contractors
referenced in Appendix C by obtaining supporting documentation referenced in
Recommendation A.2.a to determine their Service-Disabled Veteran-Owned Small
Business eligibility. If necessary, pursue contractual remedies and/or referral for
consideration of possible suspension and debarment action.

Deputy Assistant Secretary of the Navy (Acquisition and
Procurement) Comments
The Executive Director, Deputy Assistant Secretary of the Navy (Acquisition and Procurement),
responded on behalf of the Commanders, Norfolk Ship Support Activity and Naval Air Warfare
Center, Aircraft Division, and agreed with the recommendation. She stated that the Contracting
Officer, Norfolk Ship Support Activity, requested further documentation to validate the
contractor’s SDVOSB eligibility. The Contracting Officer concluded that the data presented
verified the contractor’s status as a SDVOSB. She further stated that Contracting Officer, Naval
Air Warfare Center, performed followup action to determine the SDVOSB eligibility of the
contractor. On December 12, 2011, the Contracting Officer confirmed that the contractor was
verified as SDVOSB in VIP.

Our Response
The comments from the Executive Director, Deputy Assistant Secretary of the Navy
(Acquisition and Procurement), were responsive, and no additional comments were required.

Air Force Small Business Programs Office Comments
The Deputy Director, Air Force Small Business Programs Office, responded on behalf of the Air
Force District Washington and the Air Force Materiel Command at Wright-Patterson Air Force
Base. He stated that the contract issued by the Air Force District of Washington was an 8(a) set-
aside. He also stated that the CCR for the contractor indicated that the firm was also an
SDVOSB and asked that we remove it from the audit. Further, he stated that the contract issued
by the Air Force Materiel Command at Wright-Patterson Air Force Base was issued to a
company who self-certified as SDVOSB in CCR. Finally, he stated that Air Force Material
Command officials thought we were recommending that it request that SBA validate the
contractor’s eligibility status, and they thought it would not be prudent since 90 percent of the
work was complete.

Our Response
The comments from the Deputy Director, Air Force Small Business Programs Office, on behalf
of the Air Force District Washington and the Commander, Wright-Patterson Air Force Base,
were not responsive. Although we list the contract issued by the Air Force District of
Washington in Appendix C of this report, we did not solicit comments from them in response to
this recommendation. The contractor’s status was confirmed by CVE before we issued the draft




                                               20

report. Further, the contract number referenced in the Deputy Director’s response was not the
contract reviewed during this audit, and therefore, the corresponding information provided was
not relevant.

Additionally, while the contract awarded by the Air Force Materiel Command at Wright-
Patterson Air Force Base was awarded to a contractor that self-certified in CCR that it was an
SDVOSB, Veterans Benefits Administration records do not support service-disabled veteran
status. Even though more than 90 percent of the work on the contract was complete, by not
requesting that SBA validate the SDVOSB eligibility status of the contractor, the unverified
contractor would remain eligible to receive future DoD SDVOSB contract awards. We request
that the Commander, Wright-Patterson Air Force Base, provide comments on the final report by
March 30, 2012.

Management Comments Required
The U.S. Army Corps of Engineers did not comment on a draft of this report. We request that
the Commanders, U.S. Army Corps of Engineers New England and New Orleans Districts,
provide comments on the final report by March 30, 2012.




                                              21

Finding B. Action Needed to Prevent Coding
Errors in the Federal Procurement Data System–
Next Generation
The Federal Procurement Data System–Next Generation (FPDS-NG) data contained coding
errors related to SDVOSB set-aside and sole-source contracts. Specifically, DoD contracting
personnel incorrectly coded 219 of 275 contract actions as SDVOSB awards, resulting in an
accuracy rate of only 20.4 percent for this data element. These actions should have been coded
as a different type of set-aside. The coding errors affected 137 contracts, valued at
approximately $1.3 billion. This occurred because DoD contracting personnel did not always
select the correct type of set-aside when entering contract action data. The coding errors
negatively impacted the accuracy of the data contained in FPDS-NG, upon which the Federal
Government relies. By entering incorrect information into FPDS-NG, the contracting activities
compromised the integrity of the data.

Federal Procurement Data System–Next Generation
FPDS-NG is a repository for collecting, developing, and disseminating procurement data to the
Congress, Executive branch, and private sector. The General Services Administration operates
and maintains the system. The Federal Government uses the reported data to measure and assess
the impact of Federal procurement on the nation’s economy, the extent to which awards are
made to businesses in the various socioeconomic categories, the impact of full and open
competition on the acquisition process, and other procurement policy purposes.

Recurring and special reports generated from FPDS-NG are used by the President, Congress,
Government Accountability Office, Federal executive agencies, and the general public.
Therefore, it is important that data contained in FPDS-NG are accurate, complete, and submitted
in a timely manner. To ensure up-to-date information within the system, contracting officers
must submit complete and accurate data on all required contract actions.

Contracting Officers Ultimately Responsible for Accuracy of
FPDS-NG Data
DoD contracting personnel did not always ensure that the contract action reports were coded
properly to reflect the appropriate type of set-aside. The Military Departments and Defense
agencies mainly attributed the miscodings to error on the part of the individuals who entered the
data into the contract action reports. According to FAR 4.604, “Responsibilities,” the
responsibility for the submission and accuracy of the individual contract action report resides
with the contracting officer who awarded the contract action. Therefore, contracting officers
must ensure the accuracy of all information submitted.

Also, in accordance with FAR 4.604, the Senior Procurement Executive, in coordination with the
head of the contracting activity, is responsible for developing and monitoring a process to ensure
that contract actions are reported accurately in FPDS-NG. The Senior Procurement Executive
for DoD is the Under Secretary of Defense for Acquisition, Technology, and Logistics


                                               22

(USD[AT&L]). DoD is required to submit to the General Services Administration an annual
certification of whether, and to what extent, agency contract action report data for the preceding
fiscal year were complete and accurate.

DoD Contracting Personnel Need to Ensure That Contracts
Are Correctly Coded in FPDS-NG
FPDS-NG data revealed that DoD contracting personnel incorrectly coded contracts as SDVOSB
set-aside or sole-source. For all FY 2010 DoD SDVOSB contract actions as of July 22, 2010,
FPDS-NG contained contract actions associated with 154 contractors whose socioeconomic
data 3 did not reflect SDVOSB status. We validated each contractor profile in CCR to determine
whether the contractors self-represented SDVOSB status. The CCR data revealed the following:

         •   141 contractors did not represent SDVOSB status,
         •   9 contractors did represent SDVOSB status, and
         •   4 contractors did not have CCR profiles.

Of the contracts awarded to the 145 contractors that either did
not represent SDVOSB status or did not have CCR profiles,        The Military Departments
the Military Departments and Defense agencies confirmed that        and Defense agencies
137 contracts, valued at approximately $1.3 billion, were            confirmed that 137
miscoded as SDVOSB set-aside or sole-source. The miscoded            contracts, valued at
contracts should have been coded as either Unrestricted or       approximately $1.3 billion,
another type of set-aside or sole-source, such as Small          were miscoded as SDVOSB
Business, Small Disadvantaged Business, Historically              set-aside or sole-source.
Underutilized Business Zone, Section 8(a), or Women-Owned. Table 3 shows a breakout of the
number and dollar value of the miscoded contracts by Military Department and the Defense
agencies.

     Table 3. DoD Contracts Miscoded as SDVOSB Set-Aside and Sole-Source
         Military Department                             Miscoded Contracts
              or Agency                            Number             Dollar Value
      Army                                            53              $425,163,709
      Navy                                            51               222,501,525
      Air Force                                       20                 62,718,174
      Defense Agencies                                13               619,916,071
        Total                                        137             $1,330,299,479




3
 The contractor socioeconomic data that appear in FPDS-NG are automatically populated by CCR. When a
contractor registers in CCR, it may show in its profile that the business qualifies under a specific socioeconomic
category, including SDVOSB.


                                                         23

We sampled 67 of the 137 miscoded contracts, valued at approximately $544 million, from the
initial data request for additional review. The documentation we reviewed and inquiries we
made to the contracting activities further confirmed that 55 of the contracts identified were, in
fact, miscoded as SDVOSB set-aside or sole-source.

DoD Annual Certification of FPDS-NG Data
                                    For FY 2010, DoD certified to an accuracy rate of
     DoD certified to an accuracy   96.3 percent for the type of set-aside data element;
    rate of 96.3 percent for the type
                                    however, we identified an accuracy rate of only
       of set-aside data element;
                                    20.4 percent for this data element. 4 According to the DoD
       however, we identified an    FPDS-NG Contract Reporting Data Improvement Plan,
         accuracy rate of only      DoD Components must review certain data elements for
              20.4 percent.         accuracy when included on the FPDS-NG contract action
                                    report. To confirm the accuracy of the type of set-aside
data element, the Components must first determine whether the procurement was a set-aside.
The Components must then confirm whether the type of set-aside was correct and corresponded
with CCR.

DoD contracting activities accurately coded only 56 out of the 275 (20.4 percent) contract
actions reviewed as SDVOSB set-aside or sole-source, leaving a majority of the actions
miscoded. The inaccuracies noted indicate possible control deficiencies in DoD’s process for
validating the accuracy of contract action report data related to the type of set-aside data element.
These deficiencies further indicate that DoD’s process may not include adequate procedures for
ensuring that all set-aside types are represented in the samples it selects for data validation. As a
result, DoD is not in full compliance with the standards outlined in FAR 4.604. To promote the
integrity of the data contained in FPDS-NG, the USD(AT&L) should emphasize the importance
of entering accurate information related to contract actions and reevaluate the data validation
process to address the deficiencies.

No System Controls in FPDS-NG to Detect Errors in the Type
of Set-Aside Data Element
FPDS-NG data contained 219 miscodings out of the 275 SDVOSB set-aside and sole-source
contract actions obtained for FY 2010. Contracting officers are responsible for the submission
and accuracy of the contract action reports on each contract action. The contractor
socioeconomic data associated with a contractor is loaded directly into FPDS-NG through an
interface with CCR. FPDS-NG does not have a built-in system control to prevent contracting
personnel from selecting SDVOSB set-aside or sole-source as the type of set-aside when the
contractor’s socioeconomic data do not show SDVOSB status. Therefore, human error is the
most prevalent factor affecting the accuracy of the data.

FPDS-NG includes a function to validate information entered into the system and prevent
contracting personnel from proceeding before validating and correcting errors when entering

4
 The 96.3-percent accuracy rate for the type of set-aside data element represents the overall accuracy of this element
across DoD based on the records reviewed for FY 2010. Our accuracy rate of 20.4 percent represents only the
SDVOSB set-aside and sole-source records reviewed during this audit.


                                                         24

contract action report data. However, based on the FPDS-NG validation rules, this control does
not extend to errors related to selecting SDVOSB set-aside or sole-source as the type of set-aside
when the contractor’s socioeconomic data do not reflect this status.

If the system had such a control, it would prompt contracting personnel to ensure that the type of
set-aside selected was accurate before they included the contract action report data in FPDS-NG.
This type of system-generated control would also ensure that SDVOSB set-aside and sole-source
contracts were not awarded to contractors that did not represent SDVOSB status. Therefore, to
improve the accuracy of FPDS-NG data and integrity of the SDVOSB program, USD(AT&L)
should coordinate with the General Services Administration to implement a system-generated
flag specific to SDVOSB contracts to alert contracting personnel when the type of set-aside
selected does not correspond with the contractor’s socioeconomic data.

Conclusion
Coding errors in FPDS-NG related to SDVOSB set-aside and sole-source contracts will continue
to exist until USD(AT&L) implements adequate controls to ensure the accuracy of the contract
action report data. The coding errors we identified resulted primarily from human error on the
part of DoD contracting personnel. Since human error in any system can never be eliminated
completely, USD(AT&L) should emphasize to the contracting activities the importance of
entering accurate information into FPDS-NG. The Federal Government relies on FPDS-NG data
to measure and assess the impact of Federal procurement on the nation’s economy, the extent to
which awards are made to businesses in the various socioeconomic categories, and the impact of
full and open competition on the acquisition process, and to address changes to procurement
policy. Therefore, to protect the reliability and integrity of the data upon which the Federal
Government relies, USD(AT&L) should put proper controls in place to ensure that DoD
contracting personnel enter accurate information into FPDS-NG.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics:

       1. Issue guidance to all DoD contracting activities, emphasizing the importance of
entering accurate information into the contract action reports to ensure the integrity of the
data in the Federal Procurement Data System–Next Generation.

       2. Reevaluate the process for ensuring that contract actions are reported
accurately in the Federal Procurement Data System–Next Generation. At a minimum,
ensure that all set-aside types are included in the samples selected for validating the
accuracy of the data.

       3. Coordinate with the General Services Administration to modify the contract
action report system to include a system-generated flag, specific to Service-Disabled
Veteran-Owned Small Business contracts, when the type of set-aside selected does not
correspond with the automatically populated socioeconomic data.


                                                25

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Director, DoD OSBP, responded on behalf of USD(AT&L) and agreed with the
recommendations. He stated that since the inception of FPDS-NG, the USD(AT&L) has worked
continuously to improve the accuracy of DoD data. USD(AT&L) plans to reissue guidance
related to entering accurate information in FPDS-NG by the end of the 3rd quarter of FY 2012.

In addition, he stated that data related to all set-aside types were now included in the samples
selected for validating the accuracy of FPDS-NG data and considered Recommendation B.2
closed. Finally, he stated that the General Services Administration added a business rule last
calendar year related to SDVOSB contracts and considered Recommendation B.3 closed.

Our Response
The comments from the Director, DoD OSBP, on Recommendations B.1 and B.2 were
responsive. We consider the action taken by USD(AT&L) related to the recommendations
sufficient.

The Director’s comments on Recommendation B.3 were partially responsive. Upon review of
the updated validation rules, we noted that the validation rule governing veteran sole-source and
veteran set-aside contracts was modified to include SDVOSB as a valid business type. However,
this modification would not affect contracts where the type of set-aside used was SDVOSB sole-
source or SDVOSB set-aside. Therefore, a validation rule governing that SDVOSB was the only
valid business type for SDVOSB sole-source and SDVOSB set-aside contracts was still
necessary.

This recommendation is not considered closed. We request that USD(AT&L) provide comments
on the final report by March 30, 2012.




                                                26

Appendix A. Scope and Methodology
We conducted this performance audit from April 2010 through September 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

To complete the audit, we evaluated Service-Disabled Veteran-Owned Small Business
(SDVOSB) set-aside and sole-source contract awards to contractors that were not
classified as SDVOSB concerns and contractor self-representations of SDVOSB status.
We obtained two sets of data from the Federal Procurement Data System–Next
Generation (FPDS-NG) to select samples for testing.

SDVOSB Awards to Non-SDVOSB Concerns
We obtained FPDS-NG data to evaluate SDVOSB set-aside and sole-source awards to
contractors that did not appear to be SDVOSBs. We queried FPDS-NG for all FY 2010
DoD SDVOSB contract actions as of July 22, 2010, and filtered the results to obtain all
actions associated with contractors that were not coded as SDVOSBs in FPDS-NG. We
identified 275 contract actions associated with 145 individual contracts that did not
appear to be SDVOSBs yet received SDVOSB set-aside or sole-source contracts from
DoD.

We selected 23 contractors for further review, and reviewed 75 contract actions in the
Electronic Document Access system related to the 23 contractors selected for further
review to determine whether the contracts indicated SDVOSB set-aside or sole-source.
From our review of documentation obtained from the Electronic Document Access
system, we could not clearly determine whether the contracts were awarded as SDVOSB
set-aside or sole-source. Therefore, we submitted all contract and task order information
related to the 145 contractors that either did not represent SDVOSB status or did not have
CCR profiles to the DoD Office of Small Business Programs (OSBP) for confirmation
with the Military Departments and Defense agencies.

We reviewed the responses provided by the Military Departments and Defense agencies
and selected a sample of contract items for additional review. Through various site visits
and data requests, we obtained the documentation necessary to determine whether the
sample contracts were awarded as SDVOSB set-aside or sole-source.

Contractor Self-Representations of SDVOSB Status
We also obtained FPDS-NG data to evaluate contractor self-representations of SDVOSB
status. To narrow the population, we obtained the FPDS-NG American Recovery and
Reinvestment Act report, August 24, 2010. We queried the report for all SDVOSB
contract actions and matched the actions against the Denied, Approved, and Unverified


                                            27

contractor lists provided by CVE. To focus our review on contractors that had not
participated in the CVE verification process, we excluded all contract actions that
matched to one of the CVE lists.
We provided the remaining actions to our Quantitative Methods Division to determine
our sample. The nonstatistical sampling approach grouped the population by Military
Department and contracting office, and selected the top contracting offices based on
dollar value for base year and all options. For the Army, we selected the top five
contracting offices valued over $5 million, accounting for 70-percent coverage. For the
Navy, we took a census of the contracting offices. For the Air Force, we selected the top
three contracting offices valued over $1.6 million, accounting for 96-percent coverage.

For each sample contractor, we performed independent research to obtain the information
necessary to determine whether the contractor appeared to meet the requirements for
SDVOSB concerns. Specifically, we obtained information from sources such as CCR,
the Online Representations and Certification Application (ORCA), the Small Business
Administration Dynamic Small Business Search, State License Bureaus, LexisNexis, and
the contractors’ Web sites. We also consulted with the VA Office of Inspector General to
identify the service-disabled veteran status of the business owners. In addition, we
obtained contract documentation through site visits and data requests. We analyzed all
information obtained and determined whether it supported that the contractor was eligible
for SDVOSB contract awards.

For the contractors we identified that potentially misstated their SDVOSB status, we
obtained documentation from the contracting activities to support the total disbursements
to date. We calculated the remaining financial benefit that could be made available to
eligible SDVOSBs by subtracting the total disbursements from the total contract values.

Use of Computer-Processed Data
We relied on computer-processed data from FPDS-NG to select the populations for both
samples used to complete this audit. Specifically, we relied on contractor socioeconomic
information and the type of set-aside identified when accessing the FPDS-NG data. We
determined that CCR feeds the contractor socioeconomic data into FPDS-NG and
contracting personnel input the type of set-aside. We also determined that FPDS-NG had
built-in system controls to help ensure completeness and uniformity of the data; however,
these controls did not ensure data accuracy. We confirmed the accuracy of the FPDS-NG
data by reviewing supporting documentation.

Use of Technical Assistance
The Quantitative Methods Division assisted with the audit. In support of evaluating
contractor SDVOSB status self-representations, the Quantitative Methods Division
analysts provided a nonstatistical sample of SDVOSB set-aside and sole-source contract
actions.




                                            28

Prior Coverage of the SDVOSB Program
During the last 5 years, the Government Accountability Office (GAO) has issued one
report discussing the Service-Disabled Veteran-Owned Small Business program.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. GAO-10-108, “Service-Disabled Veteran-Owned Small Business
Program: Case Studies Show Fraud and Abuse Allowed Ineligible Firms to Obtain
Millions of Dollars in Contracts,” October, 23, 2009




                                          29

Appendix B. CVE Process for Verifying Veteran-
Owned Small Businesses
In accordance with 38 CFR part 74 (2010), the VA is required to verify ownership and control of
veteran-owned small businesses, including Service-Disabled Veteran-Owned Small Businesses.
CVE is responsible for receiving, reviewing, and evaluating all VIP verification applications.

When a contractor applies for inclusion in the VIP database, CVE personnel conduct an
examination to verify the accuracy of any statements or information provided as part of the
application process. To complete the examination, CVE personnel confirm the accuracy of the
information submitted on the VA Form 0877, “VetBiz Vendor Information Pages Verification
Program,” November 2008, and verify that appropriate ownership is represented.

CVE confirms through the Excluded Parties List System that no business owners are debarred,
suspended, or otherwise ineligible to receive Federal contracts. CVE personnel review CCR,
ORCA, Dynamic Small Business Search, and the VetBiz VIP database to ensure that the
information provided is consistent and supports the information provided on the application.

CVE personnel review the contractor’s Web site, if available, and research the contractor
through public Web sites, such as Dun & Bradstreet. The CVE also obtains the contractor’s
business license from the respective state licensing bureau. If the information obtained during
the examination is not conclusive enough to make a decision, CVE personnel request that the
contractor provide additional support, such as operating agreements, articles of incorporation,
financial statements, personal and business tax returns, meeting minutes, payroll records, and
stock certificates.

Upon determining whether to approve or deny a contractor’s application for verification, CVE
issues a letter stating the decision. If CVE approves the contractor’s application, the contractor
is eligible to participate in the VA Program for Veteran-Owned Small Businesses during the
verification eligibility period as long as the contractor continues to meet the applicable
requirements. If CVE denies the contractor’s application, the letter states the specific reasons for
denial and informs the applicant of any appeal rights. Contractors approved for verification are
included in the VIP database with a “verified” status symbol, and denied contractors are removed
from public view in the database. Figure B-1 shows the CVE Vendor Verification Process.




                                                30 

Figure B-1. CVE Vendor Verification Process




                    31 

Appendix C. Memorandum to Acting Director,
DoD Office of Small Business Programs




                     32 

33 

34 

Under Secretary of Defense for Acquisition, Technology,
and Logistics Comments




                             OFFICE OFTHE UNDER SECRETARY OF DEFENSE
                                              3000 DEFENSE PENTAGON
                                             WASHI N GTON , DC 2030 1-3000


                                                                                          JAN 10 2012
     ACQ UI S m O N,
     TECHNOt.OGY
     ANO LOGISTICS


            MEMORANDUM FOR INSPECTOR GENERAL, DEPUTY DIRECTOR,
                           DoD PAYMENTS AND ACCOUNTING OPERATIONS

            THROUG H: DIRECTOR, ACQUISTlON RESOURCES AND ANAL YSIS                         ~\\0'l--
            SUBJECT: Response to DoD IG Draft Report on Inadequate Controls Over the DoD Service·
                     Disabled Veteran-Owned Small Business Set-Aside Program Allow Ineligible
                     Contractors to Receive Contracts (project N. D2010-0000FJ -0189.000)

                     Thi s memorandum responds to the two recommendations in the draft report, as
            referenced above, directed to the Director, Department of Defense (DoD) Office of Small
            Business Programs and to the three recommendations directed to the Under Secretary of Defense
            for Acquisition, Technology and Logistics. The Under Secretary asked that I respond on his
            behal f. t understand that your office sent the other recommendations (designated A.2. and A.3.
            in the Report) to the relevant Commanders for a direct response; consequently, this
            memorandum does not discuss any of the issues raised by those recommendations.

                                        Click to add JPEG file
            Payment and Accounting Operation Reco mmendation:
            You recommend that the Director, DoD Office of Small Business Programs, issue guidance to ali
            000 contracting activities that award Service-Disabled Veteran-Owned Small Business set-aside
            and sole-source contracts, reiterating the req uirement that DoD contracting personnel confirm,
            via the Central Contractor Registration, the contractor's status as a Service-Disabled Veteran­
            Owned Small Business before awarding the contract.

            Director. Office of Small Business Programs. Response:
            Concur. The Department notes that the Federal Acquisition Regulation (FAR) Part 13 applies to
            simplified acquisition threshold. For acquisitions above the simpli fied acquisition threshold,
            000 policy, set out at FAR Subpart 4.12, directs contracting officers to review a vendor' s entry
            in the Online Representations and Certifications Application (ORCA) - as that is where a vendor
            actually certifies. Paragraph three of the auached memorandum, dated Jul y 21,2010, is provided
            for your information.

            We agree to issue guidance and remind contracting officers of the requirements under FAR
            13.102, and, at the same time, highlight the use of ORCA for vendor certification. We will issue
            such guidance by the end of me 3rd quarter of FY 20 12.

             Payment and Accounting Operation Recommendation:
             You recommend that the Director, 0 00 Office of Small Business Programs establish a
             contractor verification process. similar to that outlined in Public Law Nos. 109-461 and 111 -275,
             to evaluate the contractor's statUS as a Service-Disabled Veteran-Owned Small Business prior to
             award ing set-aside and sole source contracts.
                                        4




                                                                       35
Director. Office of Small Business Programs. Respo nse:
Do not concur. Adopting verification practices similar to those of the Veteran Affairs (VA)
Center for Veterans Enterpri se (eVE) would not provide a nel benefit to our service·disablcd
veterans who OW11 small businesses. Many veterans have indicated thai the VA's verification
system is harmful to them. The process, as referenced on pages 24 and 25 of the report, is slow,
causing them to miss opportunities. The process is also resource intensive. In add ition, the
VA's parameters regarding ownership and control present barriers that discourage these
businesses from forming teams. Vetcran·o....'l1cd small businesses, as well as all small
businesses, find that teaming enables them to grow and expand in order to bener compete for
subsequent acquisitions.

As the report point's OUI, CVE was established   10   meet the requi rements of Public Law No. 109-
461 which Congress mandated specificaJly for the Depanment of Veteran Affairs. The law is
applicable onl y to the VA and not to any other Departments. Concurrently, there are many
Congressionally mandated rules for DoD (such as those in the Defense Federal Acquisition
Regulat ions) that arc very prescri ptive and are not applicable to the VA .

The different treatment of th~ two Departments suggests that Congress recognizes the difference
in mi ssions between the VA and the DoD and intends that the Departments operate with different
rules. Congress has not provided 000 either the resources or the authority to establish a system
such as Public Law No. 109-461 envisions.
                               Click to add JPEG file
We would be hesitant to alter the current veteran- focused activities in the absence of evidence
indicating that such a change would produce a net benefit to the service-disabled vetcran-owned
small businesses.

Payment and Accounting Operation Recommendation:
You recommend that the Under Secretary of Defense for Acquisition, Technology and Logistics
issue guidance to all 000 contracting activiti es, emphasizi ng the importance of en tering acc urate
information into the contract action reports to ensure Ihe integrity of the data in the Federal
Procurement Data Syslem- ex t Generation.

Under Secrctan- of Defense for Acquisition. T«hnology and Logistics Response:
Concur. Since inception of the Federal Procurement Data System, we have worked continuously
to improve accuracy of the 0 00 data. We will re-issue such guidance by the e nd of the )fd
quarterofFY 20 12.

Payment and Accounting Operation Recommend atio n:
You recommend that the Under Secretary of Defense for Acquisition, Technology and Logistics
reeval uate the process for ensuring that contract actions are reported accurately in the
Federal Procurement Data System- ext Generation. At a minimum, ensure that all set-aside
types are included in the samples selected for validating the accuracy of the data.

Under Secretary of Defense for Acquisition. Tec hnology a nd Logistics Response:



                                                  2




                                                                 36
Concur. This type of data is now included in the samples selec ted for va lidating the accurncy of
the data. Hence, this recommendati on shuuld be closed.

Paym ent a nd Accoun ting Oper ation R ecom mend a tion :
You recommend that the Under Sec retary of De fense for Acq uisition, Technology and Logistics
coordinate with th e General Services Admini stration (GSA) 10 modify the contract actio n report
system to include a system-generated nag, specifi c to Servi cerDi sabled Veteran-Owned Small
Business contracts, when the type o( set-aside se lected does not c orrespond with the
automatically popula ted socioeconomic data.

Under Secreta ry (If Defe nse for Acquisition. T echn ology a nd Logistics Response:
Co ncur. GSA added a business ruJe 10 this effe ct las\ calenda r year. Hence, this
recommendat ion should be closed.

        Pkast;; \,;untacl !lII!!!I11!1I11'IIIII11I111!IIIIIIIII"!I!!IIIIIIIIIIIIIIIIIII~ if additional
in formation is required. Thank you fo r providing me with the opportunity to respond.




                                               tV-/ic!-
                                                Andre J. G udge r, Di rector
                                                DoD Office of Small Bus iness P rograms
                                 Click to add JPEG file
Attachment :
As stated




                                                    J




                                                                  37
               OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                3OOOD~N5~PENTAGON
                              WASHINGTON , DC 20301-3000


                                                                            JUL 2 1 1010


MEMORANDUM FOR COMMANDER, UNIlED STATES SPECIAL OPERATIONS
                 COMMAND (AITN: ACQUISITION EXECUTIVE)
               COMMANDER, UNllED STAlES TRANSPORTATION
                 COMMAND (ATTN: ACQUISITION EXECUTIVE)
               DEPlITY ASSISTANT SECRETARY OF THE ARMY
                 (pROCUREMENT)
               DEPUTY ASSISTANT SECRETARY OF THE NAVY
                 (ACQUISITION & LOGISTICS MANAGEMEN'I)
               DEPlITY ASSISTANT SECRETARY OF THE AIR FORCE
                 (CONTRACTING)
               DIRECTORS, DEFENSE AGENCIES
               DIRECTORS, DOD FIELD ACTIVITIES

SUBJECT:      Correctly IdentifYing Size Status ofContr8etors

       This memorandum is to re-iterate the process for correctly detennining the size
status of contractors for contract awards in accordance with Federal Acquisition
Regulation (FAR) requirements and supporting federal-wide electronic systems. Please
                           Click to add JPEG file
ensure these procedures are disseminated throughout your procurement workforce.
     FAR Subpart 19.303, Determining North American Industry Classification System
(NAICS) Cndes and SilA: Standards, instruets cootraeting officers that they must
dctennine the appropriate NArCS code and related small business size standard and
include them in solicitations above the micro-purchase threshold. Solicitations and
synopses posted via Federal Business Opportunities (FHO) must clearly identi fy the
appropriate NAICS ende. FAR provision 52.204-8, Annual Representations and
Certifications, which is required in most solicitations, musl include the NAICS code and
size standard when included in solicitations. When the solicitation is for commercial
items. the NAICS ende and size standard must be present on the Standard Form 1449 in
accordance with FAR provision 52.212-1, Instruction to Offer - Commercial Items. If
FAR provisions 52.204-8 or 52.212· 1 arc nOt included in solicitations, contracting
officers must ensure that the NAJCS code and size standard are included in FAR
provision 52.219-1. Small Business Program Rcpresentations, when that provision is
required to be included in solicitations.
       In preparing to make contract award. contracting officers must review a vendor's
completed provisions in the Online Representations and Certifications Application
(ORCA) database (bttps:/IofC8.bpn.gov) to detennine the small business size status
relating to the appropriate NAICS code of a vendor when FAR provision 52.204-8 or
52.212-3, Offeror Representations and Certifications - Commercial hems, is included in
the contract. If these provisions arc not included, then contracting officers must review
the offerors' responses to 52.219-1 in their proposal to detennine the size status on
associated awards.




                                                         38
        Upon contract award, contracting officers must identify the predominant NAICS
code from the solicitation and the size of the successful offeror when submining their
contract action report to the Federal Procurement nata System (FPDS). The contracting
officer shall indicate either 'Small Business' or 'Other than Small Business' in the
Contracting Officer's Detennination of Business Size data field in accordance with the
offeror' s response to the applicable provision described above . If none orthe above
provisions arc included in the solicitation, there is no mechanism to detennine the size
status, and the vendor must be considered 'Other than Small Business. '

       Additionally, be reminded that FAR clause 52.219-28, Post·Award Small Business
Program Re..representation, shall be iDc:luded in solicitations and contracts exceeding the
micro-purchase threshold when the contract will be performed in the United States or its
outlying areas. This clause requires contracton identified as small businesses at oontract
award to re-represent their size status to the contracting officer upon novations, mergers
or acquisitions that do not require novations, and aD any contracts prior to extending
performance into a sixth year or any subsequent option period. If the contractor indicates
during re-representation that their size status has changed, the contracting officer must
issue a modification to indicate such and report it to FPDS within 30 days after
notification. From that point forward, subsequent actions under that contract will be
identified with the new size status.

        Please note that none of these inslrUctions indicate that the contracting officer s.hall
                           Click to add JPEG file
consult the Central Contractor Registr1ltion (CCR) database to detennine small business
size . While the Small Business Administration (SBA) does indicate at CCR if it has
certified the registrant as an 8(8) program participant or HUBZone vendor j the small
business designation that the SSA provides per n:gistnmt's listed NAICS code should
only be used for market research activities. ORCA is the official authoritative source of
the vendor's certifications regarding size at contract award.

        Thank you for your assistance in ensuring the correct identification of size status
for contractors related to contract awards. Future improvements within the federal
Integrated Acquisition Environment           in which CCR, ORCA, FBO, and FPDS all
reside, are planned to more                      these applications and associated
processes. FAR cases will                                       these
improvements .
mayb~




cc;
Director, aSD Office of Small Business Programs

                                               2




                                                            39
Deputy Assistant Secretary of the Navy (Acquisition and
Procurement) Comments




                                  DEPARTMENT OF THE NAVY
                               o FICE OF T H E ASSISTANT SECRETAR¥
                            [RESEARCH. DEVELOPME NT AND ACQUIS ITION,
                                       1000 N AVY PENTAGON
                                    WASloIlNGTON DC 20350· 1 000
                                                                                       DEC 20

      MEMORANDUM FOR DEPUTY ASSISTANT INSPECTOR GENERAL.
                       ACQUISITION AND CONTRACT MANAGEMENT,
                       DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                       ARLINGTON, VIRGINIA

      SUBJECT: Inadequa te Controls over the DoD Service-Disabled Veteran-Owned Small
               Business Set-Aside Program Allow Ineligible Conlractors to Receive
               Contract,. Draft Audit Rcport (Project No. D201 O-DOOOFJ-Ol 89.000)

             The aLlachcd comrnent ~ are provided by the Department of the Navy in response
      to your draft aud it report dated November 29. 20 II.

                                                                        She can be reached at




                                       ~c;f~
                                Click to add JPEG file
                                              Executi ve Direc tor
                                              DASN (A P)

      Anachment:
      As stated




                                                            40
          DEPARTMENT OF THE NAVY COMMENTS ON DODIG DRAFT REPORT
                D2010-DOOOFJ-OI S9.000 DATED NOVEMBER 29, 20 11

" INADEQUATE CONTROLS OVER THE DOD SERVICE-D ISABLED VETERA N-OWNED
  SMAL L B USIN ESS SET-ASIDE PROGRAM A LLOW INELIG IBLE CONTRACTORS TO
                             RECEI VE CONTRACTS "



FIND I~ G A: Contractors Improperly Received Contract AWHl'ds Intended ror Service­
Disabled Veterun-Owned Smull Businesses (SDVOSU).

Recommendation A.2: The DoDIG                 recoJllmendccl lhal tbe Commander, Navi.d Facilit ies
Engineering Command Mjd-Atlantic (NAVFAC MlDLANT) .lI1d Comnmnder, N aval Facilities
Engineering Command North west (NAVFAC Northwest) task the contractin g ameen:; to:

    <I.   Foll ow up on the conlmclOrs rererenced in this reporllo determ ine whethe r they
mi sstated t heir Service- D isahlcd Veteran-Owned SmaJl Business st;1tus by obtainin g:

           ( I) A li st of endi business ow ner/stockholder, incl uding position held and the
rc..<;pcctivc ownership percentflges totaling 100 percent,
                                 Click to add JPEG file
        2) A copy of the cither a disability rati ng leiter issued by the Departlllcnt of
Veteran s Affai rs or il di sability dCle"rmination from DoD confirming the Illajority owner(s)
service-disabled veteran status, <llld

          (3) Evidence 10 SUPPofllhal a service-disabled vc leran control s the long-tcrm
deci sion making und manages tllCday-to-duy opcnHions of the company; for example, a copy of
lhe aJ'ticles of incorpOfnljon/organizalioll or an equi vaJcnl doclJment establishing vOling righ ts.

        NA VFAC Response: Partially-concur. The Small Business Administ.f:Jli on. not the
contracting orFicer, hns the authority and responsibi lit y to determ ine if the contractors
"misst:tted" their slllall business status. Howeve r. based on the information provided in this
report, the NAVFAC co ntracting              will             the Service-Disabled Veteran-Owned
Small Busil1cs!) status  of_                                    by referring the matter to the SmalJ
Business Admin istrati on (SBA) in                                    and J3 CFR 125.25.


    b. Pursue contractual remedies and/or referral for considerati on of possible suspension or
          debarment action , iF necessary .

    NAVFAC Response: Upon receipt of the Small Business Adminjstrati on's determination,
the nppropriilt c action will be taken by the authorizing agency (NA YFAC or [he 5111:1 11      Ru s ine.~s

Admin istrat ion).




                                                                  41
Recommendation A.3: The DoDtG recommended thutthc Comnmndcr, Norfo lk Ship
SliPPOrl Activity (NSSA) a nd Commander, Nava l Air Warf<ll'c Ce nter, Aircraft (NAVA 1R)
Division:

 Task the co ntracting officer.. tD follow lip o n the contracto r!l referenced in Appe nd ix C hy
obtaining supporting documentation referenced in Recommendation A.2 .tI. to dctermine the ir
Service-Disabled Vetemn-Ow ncd S mall Business eligibil ity. If necessary, pursue COnlractll<li
remedies andlor rererwl for con:;idcration or possi ble suspen sion and debarment ac tion.

NSSA Response: Concur. At the direction of the Commander o f NSSA . the contrac ting o flicc r
requested furthe r va lidat ion 01'                                            el igib ility. The evidence
~ h ow s thall hc disabled vctcrnn in question ow ns 51 perccnl o f the siock fi nd is the C hairma n of
the .      board and C hief Execuli ve Officer/President of.       II alsu reJleets thill he has owned
o ve r 50% of the stock since incorporalion of 2005. The Depm111len t of Veterans A ITairs letter
d ocumentin g the veteran' s di sub ility and a copy ofllll By- Laws were provided . The
Contracting Officer co ncluded thai the data presen ted verified    l1li   statl1S ~s a SDVOSB.

A t the time o f the uwm'd , the Co ntracting Offi cer veri fied l1li status as a SDVQSB by
c hecking the Ce ntral C ontrac t Registry and by c hecking the On line Representation s and
Certi fi catio ns A pplica lio n in acco rdance with FAR 13. J 02 and 19.30 I- I respectivel y. An y
                                 Click to add JPEG file
fun he r verific mion of the SDVOS B status is not required by the FAR .

NA VA JU. It e.o;; ponse: Concur. Whi le the conlfacling offi cer com [,ii"d
re-guJulio ns in award ing NaV'.t1 Ai r Warfare Ccnler co ntraci                           the
recomlllendmion requested fUl'lher va lid utio n ot' the orferor' s e ligib ili ty. Therefore, Ihe Naval
Air Sys t elll ~ Command (NAVA IR). performed foll ow-up action to determine the SDVOSB
e lig ibi lity Orlhe awu l'dee. SpecificalJ y. NAV AJR searched the Department of Veteran Affa irs
Ve ndor Inform rtli on Pages (V IP) 31 hILpd /www.vip.velbiz .!!lwon 12 Decembe r 20 1 I. VIP
ind icates that the contrac tor is a verilicd SDVOSB. T herefore, no contructlLi:l1 remetlies andlor
referrals ..Ire necessa ry.




                                                                   42
Air Force Small Business Programs Office Comments






                                      DEPARTMENT OF THE AIR FORCE
                                                   WASHINGTON DC




   OFFICE OF THE UNDER SECRETARY
                                                                                             05 JAN 1011
         SMISB
         1060 Air Force Pentagon
         Washi ngton, DC 20330-1060


         Inspector General
         Department of Defense
         4800 Mark Center Drive
         Alexandria, VA 22350 - 1500

         Dear • • • • • •

                 Thank you for the opponwtily to comment on the draft arYCliT report entitled,
         " Inadequate Controls Ovcr the 000 Serv ice-Disabled Veteran-Owned Small Business Set-Aside
         Program Allow Ineligible Contractors to Receive Contracts (project No. D2010-DOOOFJ-
         0189.000)." The report makes two recommendations to OUSO aSBP.
                                       Click to add JPEG file
         000 Inspector Genera l Recommendation:

         A-I: We recommend that the Director, DoD Office of Small Business Programs:

             a.    Issue guidance to all DoD contracting activities that award Service-Disabled Veteran­
                  Owned Small Business set-as ide and sole-source contracts, reiterating the requirement
                  that 000 contracting pcrsonncl confirm via the Ccntral Contractor Registration that
                  contractors represent Service-Disabled Veteran-Owned Small Business status before
                  award.

            b. Establish a contractor verification process similar to that outlined in Public Law
         Nos. 109-461 and 111-275 to evaluate contractors' Service- Disabled Veteran-Owned Small
         Business status before awardi ng set-asi de and sole-source contracts.

         Air Force Office of Sma ll Business Prognm Response :

                 Once we receive guidance from the OUSD Director, Office o f Small Business Programs,
         we wil l coord inate with SAF/A QCX in issuing the guidance you suggest concerning the Central
         Contractor Registration, if necessary.

                 We agree with the OUSD 0 00 Office of Small Business Programs, insofar as adopting
         the verification practices of the Veteran Affairs Center for Veterans Enterprise (CVE) would be
         inappropriate for our mission.

                Additionally, in our attachment, we provide responses for the three contracting activities
         mentioned in your report. Overall , at least with respect to the Air Force, encryption keys used by




                                                                     43
                                                                                               2
your office were not compatible with most of our activities and the contracts and contractors
referred to, but not identified, were difficult to find which delayed response time. Also, the
methodology used seemed to measure the Air Porce contracting activities to the Veterans
Administration processes and procedures which, as you know, is not applicable to, other than the
VA.

       There is no argument that where PCO's fails to do the minimum requirement of checking
a Contractor SDVOSB status against the CCR or miscoding contracts in FPDS·NG, whil e not
confined to SD VOSB, does need to be addressed.

       Thank you ror providing me with the opportunity to respond.

                                              Sincerely




                                           ~.~;-Cfr~RA~t~;--
                                              Deputy Director
                                              Small Business Programs
                                      Department of the Air Force
                            Click to add   JPEG file
       Attachment:
       Comments on the subject DoD 10 Report




                                                          44
Attachment 1                                                        6 J an uary 2012

Subject: [nadequate Controls Over the DoD Service Disabled Veteran-Owned Small
Business Set-Aside Program Allow Ineligible Contracts to Receivc Contracts. dated 29
Nov 2011

The subject <tJ)RAFT" report was scnt to the individual contracting activities for
comment before publication. Three Air Force Contracting Activities: AFNCR appeared
on page 28 for a contract totaling $1.607,060.28 and AFMC also appeared on page 28 for
a contract valued at $1,299,494.00. Offutt Air Force Base. ACC and. Offutt were cited
on pages 9. II . and 12 for two contracts with a combined total dollar amount of
$1,943,611. .

The contract at                                             set-asi de. When r looked up the
CCR for the contractor                                          code _      , it indicated
that the finn was also an 8((lj,                     Americ(m Owned. Service
Disabled Veteran Owned Business, Women-Owned Business and an Economically
Disadvantaged Women-Owned S111(11/ Business. Each category is cowlted as an obligation
under thi s award. Please remove 20 CONS, Shaw AFB SC, from the requirement to
respond. They have no part in this audit.

                           Click .to  add      JPEG file
                                       on page 28 on contract
                                   The contract was to replace
                                         28 September 2009. 1 pulled the CCR for
                              eOI]Jp,my self certified themselves as SDVOSB as well as Self
                 Di'ma'vOl"ta.~ed BIIl'iness and found it was a S111(1/1 business. AFMC
                              10 wanted them to go to the SBA to rcquest the SBA assist
                             is a SDVOSB. Bccause the work is over 90% complete.
                  ==='--        at this time. would not be prudent. It appears that they did


My evaluation of the Offutt AFB part of the report was as follows:

On page II of the DoD DRAFT 10 report. the report cites two contracts ou t of ;"The 55 th
Contracting Squadron personnel at Offutt Air Force Base awarded two SOVOSB set­
asidc contracts through scaled bid; Contract I for $1.3m and Contract No.2 for $619, 134
to Contractor D. However....evidence exists to question the validity of Contractor D and
whether it might be ajXJtential passthrough to Contractor D-I. Initial supporting
documentation established Contractor D as an eligible SDVOSB; however~ evidence
existed that qucstions Contractor O's validity.
    • Contractor D recei ved the contracts; howevcr, documentation in the contract files
        supported that a joint venture was establ ished betwccn Contractors D and D-I . No
        documentation was found that the contracting activity assessed thc eligibility of
        the joint venture.




                                                          45
•   The CCR for Contractors D and D-l contained the same po ints of contact for both
    companies. A side by side review of CCR documents of each finn found no
    common points of contact.
•   The past perfonnance summary included only past perfonnance for Contractor D·
    1. It is uncommon for a prime to engage a subcontractor who has relevant past
    perfonnance to provide the command with a level of assurance that the prime can
    do the work. As long as the SDVOSB does 15% of the work in a construction
    contract and is managing the project it should be in compliance.
•   Contractor 0 was located in a single family residence and did not have a company
    website. Lmmaterial, many smal l businesses work out of their residence and
    unless the task required a website. then this is also immaterial. Keeping down the
    overhead allows small businesses to keep their overheads low and provide the
    government with the same quality at a lower price.
•   The contractor representati ve was identified as the vice president of Contractor 0-
    1. 0 evidence was presented other than this written conclusion that this, in fact,
    exists. So no comment can be provided.
•   Additionally, e-mail correspondence was sent from a Contractor 0-1 e-mail
    account and included the address for Contractor 0-1. This statement is unclear.
    One would expect to have an cmployee of Contractor 0-1 to send correspondence
    from their company e-mail account and for that account to have their address.
•   Contractor 0 articles of incorporation with the state of Missouri designated a
                      Click to add JPEG file
    three-member board of directors. The board had the power to make decisions by
    majority vote. Only one of the threc shareholders was a service-djsablcd veteran,
    and the articles of incorporation wou ld preclude him from contro lling the long
    term decision making and day-to- day management and administration of the
    business operations of Contractor 0 because he could be outvoted by the
    members. The business license was terminated in 2009, and the later articles of
    incorporation couldn ' t be obtained, preventing further determination. Contracting
    Officers are to verify that the Contractor is a ervice Disabled Veteran Small
    Business in CCR which they did and you also found. Oetting a hold of the articles
    of incorporation is not required. Only one veteran was a shareholder. Did he own
    51% or more of the company? You did not indicate whether the BOD had two
    Service Disabled Veterans,just that there was only one SOV as a stockholder. In
    the change in the articles of incorporation, you admitted YOll could not obtain, so
    you do not know whether or not this perceived problem was subsequently
    corrected.
•   The inconsistencies with the documentation support that Contractor D was a
    potential passthrough company to Contractor 0·1. Additionally. information
    reported by Contractor 0 on the Rccovery.com Web site supportcd that
    Contractor 0 was not rctaining the required 15 percent of contract cost. The
    possibility that Contractor D was a passthrough would indicate that the percentage
    retained was going to Contractor 0-1 , which was not a SDVOSB. The
    Contracting Officer would have no way of knowing, al the time of contract award,
    what the ultimate outcome of the percentage of contract cost going to Contractor
    0, a self certified CCR registered SDVOSB, would be less than 15 percent.




                                                    46
VIR




              Business Programs




      Click to add JPEG file




                        47
